No. 20-502
In the

Supreme Court of the United States
__________________

SHERIFF KEN MASCARA, in his Official Capacity as
Sheriff of St. Lucie County, Florida and
CHRISTOPHER NEWMAN,
Petitioners,
v.
VIOLA BRYANT, as Personal Representative of the
Estate of GREGORY VAUGHN HILL, JR.,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

__________________

BRIEF IN OPPOSITION
__________________
JOHN M. PHILLIPS
Counsel of Record
PHILLIPS & HUNT
212 North Laura Street
Jacksonville, FL 32201
(904) 444-4444
(904) 508-0683 (facsimile)
jmp@floridajustice.com
Counsel for Respondent

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
The Petitioners presented the following questions:
Whether this Court should adopt a more flexible
standard of admissibility of evidence than what is
required by Huddleston v. U.S., 485 U.S. 681 (1988)
under Rules 403 and 404(b), regarding the
determination of prejudice in civil police liability cases,
which often involve Plaintiffs who are on probation,
have criminal histories, warrants, or possess evidence
of a crime that is unknown to the officer but helps
explain their response to law enforcement officers
performing their duties?
Did the Eleventh Circuit panel disregard the
appropriate standards of review and the appropriate
application of the harmless error rule, making
themselves impregnable citadels of technicality in this
case, resulting in a departure from the accepted and
usual course of judicial proceedings as to call for an
exercise of this Court’s supervisory power?

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
COUNTER-STATEMENT OF THE CASE . . . . . . . . 3
A. Petitioners Mischaracterized Destiny
Hill’s Testimony . . . . . . . . . . . . . . . . . . . . . 3
B. Petitioners Mischaracterized Probation
Testimony . . . . . . . . . . . . . . . . . . . . . . . . . . 7
C. Petitioners Mischaracterized Testimony
about Hill’s Alleged Gun . . . . . . . . . . . . . . 9
D. Petitioners Mischaracterized Testimony
about Hill’s Incapacitation. . . . . . . . . . . . 13
REASONS THE PETITION SHOULD BE
DENIED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
I.

The Petition Does Not Meet the Standard of
Rule 10 Governing Review on Writ of
Certiorari . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

II.

This Petition Presents an Improper Vehicle
to Warrant Supreme Court Involvement . . . 16

III.

The Eleventh Circuit’s Standard of Review
Was Legally Appropriate . . . . . . . . . . . . . . . 21

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

iii
TABLE OF AUTHORITIES
Cases
Chapman v. California,
386 U.S. 18 (1967). . . . . . . . . . . . . . . . . . . . . . . . 21
Escabido v. Martin,
728 F.3d 388 (7th Cir. 2012). . . . . . . . . . . . . . . . 23
Graham v. Conner,
490 U.S. 386 (1989). . . . . . . . . . . . . . . . . . . . . . . 23
Huddleston v. U.S.,
485 U.S. 681 (1988). . . . . . . . . . . . . . . . . . i, 17, 19
Knight ex rel. Kerr v. Miami-Dade County,
856 F.3d 795 (11th Cir. 2017). . . . . . . . 1, 2, 20, 24
Kotteakos v. United States,
328 U.S. 750 (1946). . . . . . . . . . . . . . . . . . . . . 2, 24
Kurr v. Miami-Dade County,
856 F.3d 795 (11th Cir. 2017). . . . . . . . . . . . . . . 23
Old Chief v. United States,
519 U.S. 172 (1997). . . . . . . . . . . . . . . . . . . . 18, 19
Pratt v. State,
1 So. 3d 1169 (Fla. 4th DCA 2009) . . . . . . . . . . . 21
Sherrod v. Berry,
856 F.2d 802 (7th Cir. 1988). . . . . . . . . . . . . 19, 23
United States v. Avarello,
592 F.2d 1339 (5th Cir. 1979). . . . . . . . . . . . . . . 21
United States v. Beechum,
582 F.2d 898 (5th Cir. 1978). . . . . . . . . . . . . . . . 21

iv
United States v. Ingraham,
832 F.2d 229 (1st Cir. 1987) . . . . . . . . . . . . . . . . 18
United States v. Moccia,
681 F.2d 61 (1st Cir. 1982). . . . . . . . . . . . . . . . . . . . 19
Constitution
U.S. Const. amend. IV. . . . . . . . . . . . . . . . . . . . . . . 19
Rules
Fed. R. Evid. 404(b)(2) . . . . . . . . . . . . . . . . . . . . . 1, 23
S. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Other Authorities
1 J. Weinstein, M. Berger, & J. McLaughlin,
Weinstein’s Evidence (1996). . . . . . . . . . . . . . . . 18

1
INTRODUCTION
The Eleventh Circuit Court of Appeals reviewed and
reversed the underlying decision of the trial judge
which overruled and denied all of Respondent’s
repeated requests to disallow evidence of Respondent’s
deceased son’s alleged probation, which was entirely
unknown to officers responding to her son’s home as a
mere result of a loud music complaint.
Federal Rule of Evidence 404(b) provides that
evidence of “other crimes, wrongs, or acts” is not
admissible to prove a person’s character, but may be
admissible for other purposes, such as proof of
knowledge. As noted by the Eleventh Circuit, “Rule
404(b)(2) provides that such evidence “may be
admissible for another purpose, such as proving
motive, opportunity, intent, preparation, plan,
knowledge, identity, absence of mistake, or lack of
accident.” However, “Evidence that is admissible under
Rule 404(b)(2) must still “possess probative value that
is not substantially outweighed by its undue prejudice
and must meet the other requirements of [R]ule 403.”
Judges Martin, Lagoa and Grant unanimously held,
“Evidence of Mr. Hill’s probationary status was not
relevant to any issue other than Hill’s character. It
therefore had no permissible probative value.”
The Eleventh Circuit added, “(T)here are
circumstances in which criminal history evidence not
known to law enforcement officers at the time force was
used may still be admissible under Rule 404(b) to lend
support to the officers’ factual claims. For example, in
Knight ex rel. Kerr v. Miami-Dade County, 856 F.3d
795 (11th Cir. 2017), this Court affirmed the admission

2
of evidence that three victims of a police shooting were
on probation at the time of the shooting.” The court
reviewed Knight, its own case and held, “No such
circumstances were present here. Unlike in Knight,
there was no material fact in dispute that Mr. Hill’s
probationary status helped resolve.”
Petitioners seek a departure from the Rule and case
precedent, exclusively in civil rights cases, in order to
introduce evidence of probation unknown and
irrelevant to a police shooting merely because it “may
explain” the shooting victim’s response to law
enforcement. Petitioners cite no precedent while asking
the Supreme Court to essentially create new law. This
request should be denied.
Petitioners next ask, did the Eleventh Circuit make
“themselves impregnable citadels of technicality” in the
underlying case? Petitioners apparently seek to invoke
words from Kotteakos v. United States, 328 U.S. 750,
758 (1946), which are sometimes invoked to accuse
appellate courts of overstepping, which, in this case, is
precisely what the unanimous court said the district
court did at the trial level. The Eleventh Circuit
engaged in a reasoned analysis, concluding, “The
District Court abused its discretion in admitting
evidence of Mr. Hill’s probationary status at trial, and
this error resulted in prejudice to Ms. Bryant’s case
against Deputy Newman and Sheriff Mascara. Because
this error independently warrants reversal, we need
not reach Ms. Bryant’s other arguments.” This request
should be denied.

3
COUNTER-STATEMENT OF THE CASE
Of course the trial court certainly was able to “hear
all of the evidence” as cited by Petitioners. However,
the record was well kept and the trial testimony was
fully reviewed by the Eleventh Circuit Court of
Appeals, as noted during the oral argument and in its
opinion. Respondent rebuts the entirety of the
narrative from trial as expressed in the Petition for
Writ of Certiorari.
A. Petitioners Mischaracterized Destiny
Hill’s Testimony.
There is a substantial attempt to discredit or isolate
the testimony of Destiny Hill, the most clear and
consistent eyewitness to the matter. At the time police
pulled up to her house, Miss Hill was sitting across the
street at school. She was sitting “on the first bench,”
“closest to the house.” (R-240-pg. 107/lines 21 – pg.
108/line 1). She heard no police commands. (R-240-pg.
108/lines 12-13). She saw her dad’s hands and he was
not holding a gun. (R-240-pg.109/lines 2-5). She saw
the garage door briefly raise up. Her dad put the
garage door down and then police shot. (R-240-pg.
117/lines 14-24).
Her testimony was buttressed by many others. Her
school’s principal, Juanita Wright, testified she did not
hear police give any commands (R-238-pg. 230/line 6),
she did not see Mr. Hill with a gun in his hand (R-238pg. 231/line 2) and only saw the door raise “slightly” (R238-pg. 230/line 16). Another teacher, Donna Hellums,
said she, “saw the garage door go up and start coming
back down and I heard some pops.” (R-238-pg. 238/lines

4
9-10). She did not see Mr. Hill, much less Mr. Hill
holding up a gun during that time. (R-238-pg. 240/lines
5-7). Ms. Mcguire, another teacher, testified all she
saw, “a garage door open and I saw legs, and that was
it.” (R-239-pg. 39/lines 17-18). And, she said, “I only
saw like maybe right before the knee or something. I
didn’t see like a torso.” (R-239-pg. 54/lines 19-20). She
heard officer’s “forceful bang” on the door (R-239-pg.
51/lines 19-20, 22), but does not recall any commands
by the officers. (R-239-pg. 43/line 1). David Morales,
another teacher, said he briefly believes he saw a man
standing behind the garage door. (R-239-pg. 65/line 3).
He saw his legs, and then the garage door went down.
(R-239-pg. 69/lines 21-25). He never saw a firearm
possessed by the person inside the garage. (R-239-pg.
67/ lines 12-14). Mr. Morales doesn’t remember
hearing any commands. (R-239-pg. 65/ lines 23-25).
Stefanie Mills Scheutz was the parent who actually
called police over what Petitioners repeatedly referred
to as “loud and vulgar music.” In fact, the song was one
she regularly listened to by the artist, Drake, but it
certainly had curse words in the version playing that
day. (R-239-pg. 10/lines, 15, 19, 22-23). Ms. Scheutz
wasn’t sure if she heard the “f word” a single time. (R239-pg. 19/lines 14-15). Although typically reserved for
emergencies and not sensitivity to utterances within
recordings of Canadian rap artists, she called “911.”
(R-239-pg. 11/line 9). Police arrived while she waited
for her children to load into her car. She was facing the
house as the subject incident occurred. She described,
“the garage door was opened, and then it was very
quickly closed which I never saw -- at that time I never
saw anyone inside the garage.” (R-239-pg. 13/lines 1-2).

5
She “saw the police officer jump back and shoot into the
garage.” (R-239-pg. 13/lines 9-10). Ms. Scheutz told
Petitioners’ counsel the shooting officer appeared
“startled.” (R-239-pg. 32/lines 13-21). She recalls
hearing no officer commands.
Meanwhile, the non-shooting deputy, Edward
Lopez, stood feet away from former deputy Newman.
He noted loud music wasn’t an arrestable offense, the
officers were in no way aware of the owner or occupant
of the house, or any criminal history or probation
status thereof. Deputy Lopez did not fire. He only
heard former deputy Newman yell, “hey” as Mr. Hill
“started to bring the garage door down really quick.”
(R-239-pg. 209, lines 2-3, 9). He admitted he was
trained not to fire at something if you cannot see it,
which was only one of the reasons he didn’t fire. (R239-pg. 211/ lines 3-7).
As such, the wealth of witnesses supported this
occurring in a matter of instances exhibiting a lack of
commands and containing a series of vast
inconsistencies in contrast to the evidence presented by
former deputy Newman and his employer. Compare
that with the testimony of the shooting officer, former
Deputy Christopher Newman. Upon allegedly seeing
Mr. Hill with a gun in his hand in his own home,
Newman admitted he couldn’t shoot him. (R-241-pg.
143/lines 1-4). As such, he indicates he gave a host of
commands “As loud as I could possibly imagine.” (R241-pg. 148/line 4). At trial, Newman said, “I know I
said, “gun, gun, drop the gun” and I believe I said “drop
the gun” again.” We timed it and it took 2.7 seconds for
him merely to say, one time, “Gun, gun, drop the gun,

6
drop the gun.” (R-241-pg. 197/lines 9-13). As we had
been through this before, Newman said, “The entirety
of (his commands).” (R-241-pg. 197/line 16).
Newman was asked at trial, “You never said
Sheriff’s Office?” and he said, “Only when I was
knocking on the doors.” (R-241-pg.196/lines 9-10).
After being presented with his deposition testimony,
where he indicated his command was, “Sheriff’s Office,
gun, gun, drop the gun,” he admitted “it would take
more time than gun, gun, drop the gun.” (R-241-pg.
198, lines 23-25). Of course, no one heard any of these
commands and the timing is entirely inconsistent with
any other rendition of the facts.
Mr. Hill allegedly raised his gun fast while the door
lowered. (R-241-pg. 156/line 14- pg. 157/line 5).
Newman fired in quick succession, “I fired my first
round and it was like you got to fire your volley instead
of one. I went one, and two, three, four.” (R-241-pg.
153/lines 22-23). The shots were “Fractions of a second
apart.” (R-241-pg. 208/lines 5-6). Newman “lost sight
of the gun before (he) fired,” agreeing, “Yes, as I
decided to fire, I was losing sight of the gun (behind the
garage door).” (R-241-pg. 201/ lines 11-14). Newman
also said, “So, the last point I saw the gun it was
coming up” and he fired the volley of four shots. (R-241pg. 200/lines 12-20). Based on all of the medical
testimony, scientific testimony and factual testimony,
there is simply no evidence Mr. Hill had time or
capacity to place the subject firearm back to where it
was found, just barely sticking out of his pocket.
Recreation or “demonstration” literally was impossible.

7
B. Petitioners Mischaracterized Probation
Testimony.
Essentially, Petitioners accused the mother of Greg
Hill’s children of perjury, saying, “Terrica Davis who
testified (falsely) that Hill was not on probation at the
time of the shooting.” Here is that actual exchange:
Q. Do you know for a fact if Mr. Hill was on
probation on January 14, 2014?
A. Yes.
Q. Was he?
A. No.
Q. Was there a probation order?
A. Yes. (R-240-pg. 73/lines 14-20).
Ms. Davis went on to elaborate that Mr. Hill would
have been more familiar with the probation order, he
had paid off the money and was completing all of his
classes the last weeks of his life. (R-240-pg. 72/line 21pg. 73/line 5).
Niles Graben was not Mr. Hill’s probation officer,
but reviewed his file and worked for the Florida
Department of Corrections, Probation and Parole
Services. He testified Mr. Hill’s probation was
terminated because of his death and not before,
“January 21, 2014, with a nunc pro tunc date back to
January 16, 2014.” (R-240-pg. 129/lines 18-20). Mr. Hill
was killed on January 14, 2014. As such, Petitioners’
elicited testimony that Mr. Hill was in violation of that
probation by being (1) intoxicated and (2) in possession
of the firearm.
On rebuttal, Mr. Graben admitted Mr. Hill had a
special condition to his probation, “As a special

8
condition, your probation automatically will terminate
upon successfully completing one year of supervision.”
(R-240-pg. 131/lines 22-24). This order was signed
January 9, 2013, nunc pro tunc to January 3rd, 2013
and records reflect Mr. Hill visited his probation officer
“on January 3, 2014, at approximately 12:30 p.m.” (R240-pg. 133/line 3). However, no records of any
outstanding payments or conditions were part of Mr.
Hill’s file or discussed with the jury. At least one
member of St. Lucie County Sheriff’s Office who
investigated this matter, Sergeant Edgar Lebeau,
testified he wasn’t sure when Mr. Hill’s probation
terminated. (R-240-pg. 171/lines 16, 24).
Introducing probation status in police involved
cases was perhaps best stated by Respondent’s law
enforcement expert in this exchange:
Q. A gun was found in Mr. Hill’s possession, and
we all agree to that. We expect there is going to
be evidence to show that Mr. Hill was on some
sort of probation. What significance does that
have related to this case?
A. No significance.
Q. Why not?
A. I think the fact that he was on probation, if he
was on probation, has to be calculated from the
perspective of the officers on the scene. What is
it that they knew they were responding to at the
event, not what they found out later. Often, this
can poison the review. If we bring in data not
available to the officer at the time and allow it in
the calculus of the decision-making, it corrupts
our understanding of what the law enforcement

9
officers did. In this case, my understanding is
that they didn’t know that he was on probation,
and should not be alarmed by the fact that the
he had a gun because you could have a gun in
your house.
(R-239-pg. 149/line 12- pg. 150/line 5).
The Order setting probation was clear. A special
provision was added which stated, “As a special
condition, your probation will automatically terminate
upon successfully completing one (1) year of
supervision.” It was signed January 9, 2013, nunc pro
tunc back to January 3, 2013.
Whether or not there was some remaining payment
or condition, probation status was unknown to the
officers, irrelevant, prejudicial and in no way
warranted introduction as it was introduced as the
Eleventh Circuit held.
C. Petitioners Mischaracterized Testimony
about Hill’s Alleged Gun.
The central argument by Petitioners correlates the
relevance of probation with the firearm found in Mr.
Hill’s back pocket, “as if he was trying to hide it.” And
Petitioners stated, Hill “had a motive for quickly
getting both himself and his gun out of the sight of law
enforcement.” It’s a flawed premise factually and
legally.
Petitioners repeatedly claimed the firearm found in
Mr. Hill’s pocket was indisputably his. Petitioners’
named DNA expert, Earl Ritzline, said he merely found
a low level, partial, and a mixture of three individuals,

10
which simply could have been transferred from Mr.
Hill’s pocket. This is despite Mr. Hill being shot twice
in the exact vicinity of where he allegedly brandished
the gun in what was quite a bloody aftermath. Roy
Bedard, respondent’s expert testified, “I would find it
highly unusual that it would have been clean (of blood
or DNA) if he would have been shot while holding it.”
(R-239-pg. 141/lines 13-14).
As for the repeated mischaracterization of a
“demonstration,” it literally consisted of a law
enforcement officer and his attorney easily putting the
subject gun in and out of a pair of shorts. In fact, that
“demonstration” went so poorly, Petitioners’ counsel
and her client couldn’t keep the gun in the proper
position in the shorts. At one point, he was told to,
“Hold it like that for a second” with the gun sticking
out like it did in the photos. (R-240-pg. 163/line 16).
And again, the Petitioners’ lawyer and her client
visibly could not recreate the placement of the gun and
explained, question, “Which, again, is hard to do,
gravity is operating against you?” and Answer, “Yes.”
(R-240-pg. 163/line 24-pg. 164/line 1).
Not only was the demonstration visibly flawed, but
it was done by two sober people, who were not shot,
who were not trying to simultaneously put a garage
door down and otherwise exhibited nothing of the facts
here. Nothing about the “demonstration” was scientific
or reliable and it has entirely been mischaracterized in
the Petition for Writ of Certiorari.

11
As summarized during rebuttal:
Q. What happened when you dropped the gun
into the pocket? Is it fair to say you couldn’t see
the gun anymore?
A. Yes, in this demonstration.
Q. Because gravity took it down to the bottom?
A. Yes.
Q. Was gravity in effect on January 14, 2014?
A. Yes, it was.
Q. In fact, to be able to have that gun so that you
recreated where it was in the photo, you held it,
didn’t you? You held on to the gun so that it
could peek out of the pocket?
A. Yes.
(R-240-pg. 177/lines 11-22).
It was also a surprise. As Respondent’s expert, Mr.
Bedard, noted at trial, he didn’t even know the gun was
in evidence as, “it wasn’t provided in discovery.” (R239-pg. 177/lines 2-3). And, Bedard said, “It is typical
to purge evidence when the criminal case is completed.”
(R-239-pg. 177/lines 10-11). While Mr. Bedard may not
have needed it as he isn’t a “forensic person,”
Respondent would have sought additional experts had
it been properly disclosed.
Indeed, the firearm was at all times possessed by
Petitioners, but never appeared on any disclosure or
exhibit list. At no time prior to filing a motion to bring
the handgun into the courthouse was the gun ever
disclosed in discovery. Respondent repeatedly
preserved this issue and it ultimately resulted in a
rudimentary “demonstration”, which potentially

12
spoliated evidence by rubbing the gun and shorts
together repeatedly. The Eleventh Circuit panel was
highly critical of this Rule 26 violation by Petitioners
during oral argument, but did not address it in the
ultimate opinion based on the reversal and remand of
the case for a new trial based on the probation issue.
Petitioners also repeatedly mischaracterized Hill’s
gun ownership, saying Hill was “known to have a gun
which he kept in the garage” and “Hill known to keep
gun in garage and in open file cabinet.” When asked,
Monique Davis, the mother of two of Hill’s children,
longtime fiancé and co-occupant of the family home
said:
Q. Talking about a firearm, had you ever seen a
firearm in the house before?
A. No.
Q. Did you know Mr. Hill had one?
A. No.
Q. Do you like guns?
A. No.
(R-240-pg. 72/lines 7-13).
His children also never knew of their father to have
a gun “at all.” (R-240-pg. 118/ lines 7-8). It is true
Andrew Brown stated at trial, “Did I ever know -- did
I ever know him to have a gun? Yes.” And further, he
said he would have typically kept it in a file cabinet.
(R-241-pg. 123/lines 7-11). However, Brown also was
asked, “Did you see the black item in the pocket in the
photo? That is identified as a gun. Did you see him
with a gun at any point that day?” He said, “No. No.

13
No.” (R-241-pg. 126/lines 12-15). Full and fair
disclosure of facts are important.
D. Petitioners Mischaracterized Testimony
about Hill’s Incapacitation.
Petitioners’ counsel asked Respondent’s expert Mr.
Bedard if he had an opinion about whether Mr. Hill
could have placed his gun in his back pocket after
brandishing it as alleged. Bedard pointed out, “From
the statements of the officers that the shot was fired
when the weapon was coming up, the officer indicated
he could see the weapon when he first fired the first
shot, and rapidly fired it. That means the head shot
was within a half second of the first shot. I’m not sure
which one hit him in the head first. I don’t think you
have the where-with-all to tuck your weapon in a back
pocket when you are hit in the head.” (R-239-pg.
181/line 25-pg. 182/line 6).
Only one person in the entirety of trial answered
this question medically and scientifically- Dr. Liam
Robert Anderson, Respondent’s forensic pathologist.
The stipulated third shot caused “massive brain injury
and essentially cut off all neurological function.” (R240-pg. 25/lines 9-10). The other two shots were on the
right side of Hill’s body, in the very vicinity where he
allegedly raised the blood-free gun. Further, based on
trajectory, Mr. Hill was “bending forward,” likely to
lower the garage door, not bending backwards to put a
gun in his sagging shorts, which also matched the
finding of brain matter on the garage door. (R-240-pg.
34/lines 10-12). Further, Dr. Anderson indicated that it
would be forensically “highly unlikely that (Mr. Hill’s
arm) was anywhere near this position” for Mr. Hill to

14
be extending in a way to raise a firearm. (R-240-pg.
36/lines 19-24).
Most importantly this is the only testimony
whatsoever about this issue:
Q. With regard to the wound to Mr. Hill’s head,
would he be capable of any motor function after
sustaining that shot?
A. In my opinion, no.
Q. Why?
A. Because it interrupted all of the nerve
traction, destroyed the connection of the upper
brain and the lower portion of the body, cutting
the spinal cord completely, but it is higher up, so
you even destroy more motor function. You may
have some after the other two, but not after the
head wound.
(R-240-pg. 36/lines 7-15).
Petitioners brought in the medical examiner, Linda
Rush O’Neil, who did the autopsy. She described the
shots to Mr. Hill’s right side as severing “major vessels
which the person was bleeding from,” which would
have caused death “within minutes from blood loss,”
which describes the large amount of blood all over the
scene, Mr. Hill’s hands and floor (in contrast to none on
the subject firearm). (R-241-pg. 63/lines 7-10). As for
the head shot, O’Neil agreed with Anderson, “The
projectile to the head would have immediately rendered
a person unconscious.” (R-241-pg. 63/ lines 18-19).
O’Neil agreed Mr. Hill’s level of intoxication would
have caused him to be “severely impaired” mentally
and “not capable of acting normally.” (R-241-pg.

15
74/lines 18-19 and pg. 75/lines 3-5). Despite all of this,
Petitioners want this Court to assume normal thought
and movement, so as to justify probation being
remotely relevant and not excessively prejudicial.
As a reminder, Petitioners fundamentally condition
their position on the fact Mr. Hill “would have been
able to put the gun into his rear pocket prior to the last
shot striking his head, as demonstrated during trial
where the gun easily fit into the large rear pocket of
Hill’s shorts.” There simply is no evidence to support
this, but Petitioners need this falsehood to be true to
support their position about probation being remotely
relevant.
Petitioners need this court to believe its lawyer and
her client were able to slowly place a firearm into a
large pocket in court that Mr. Hill could have done the
same while raising and lowering a garage door, while
being shot three times, while raising a gun at an officer
to justify his shooting, while severely intoxicated, while
getting shot in the brain immediately incapacitating
him, but yet to then put the blood-free gun only in the
edge of his shorts so that it defies gravity and is visible
upon his death. Those were not in any way the terms of
the “demonstration.”

16
REASONS THE PETITION SHOULD BE
DENIED
I.

The Petition Does Not Meet the Standard of
Rule 10 Governing Review on Writ of
Certiorari

Under Supreme Court Rule 10, “a petition for a writ
of certiorari will be granted only for compelling
reasons.” Petitioners have indicated no such reason to
legally justify its Petition. No United States Court of
Appeals has entered a decision in conflict with the
decision of another United States Court of Appeals on
the same important matter. In fact, what Petitioners
expressly seek is a new, “more flexible standard of
admissibility” that has ever been required. This is not
a vehicle for proper review.
Secondly, the Eleventh Circuit Court of Appeals has
not “decided an important federal question in a way
that conflicts with a decision by a state court of last
resort.” Additionally, the Eleventh Circuit Court of
Appeals did not “so far departed from the accepted and
usual course of judicial proceedings, or sanctioned such
a departure by a lower court, as to call for an exercise
of this Court’s supervisory power.”
II.

This Petition Presents an Improper Vehicle
to Warrant Supreme Court Involvement

An important basis of this Petition appears to be
buried in a footnote. Without any context, the
Petitioners cite the alleged rising “number of civil
rights cases being filed against law enforcement
officers” to warrant now “as an appropriate time for the
court to adopt a less restrictive standard favoring the

17
admissibility of this type of evidence in 1983 police civil
rights cases.” This is a legislative question.
Petitioners also cite hope for a new rule, not one
arising out of conflict or by any departure by the
Eleventh Circuit. Petitioners stated, “It should be the
rule that such evidence, if relevant to explain the
actions of the Plaintiff which related to the
reasonableness of an officer’s perception or credibility
of the officer’s testimony regarding the event, is
presumed to be admissible, and not unfairly
prejudicial…” This Petition is based on raw hope, not
legal conflict or merit.
That propriety of the argument aside, the Court
should not adopt a more flexible standard of
admissibility of evidence than what is required by
Huddleston v. U.S., 485 U.S. 681 (1988) as the current
standard already has provisions to protect against
unfair prejudice. The standard identified by the court
is as follows:
We think, however, that the protection against
such unfair prejudice emanates not from a
requirement of a preliminary finding by the trial
court, but rather from four other sources: first,
from the requirement of Rule 404(b) that the
evidence be offered for a proper purpose; second,
from the relevancy requirement of Rule 402—as
enforced through Rule 104(b); third, from the
assessment the trial court must make under
Rule 403 to determine whether the probative
value of the similar acts evidence is
substantially outweighed by its potential for
unfair prejudice, 8 see Advisory Committee’s

18
Notes on Fed. Rule Evid. 404(b), 28 U.S.C. App.,
p. 691; S. Rep. No. 93–1277, at 25; and fourth,
from Federal Rule of Evidence 105, which
provides that the trial court shall, upon request,
instruct the jury that the similar acts evidence
is to be considered only for the proper purpose
for which it was admitted. See United States v.
Ingraham, 832 F.2d 229, 235 (1st Cir. 1987).
This Court has explained the dangers of admitting
evidence that results in unfair prejudice. Old Chief v.
United States, 519 U.S. 172, 180–81 (1997). It said
“unfair prejudice,” speaks to the capacity of some
concededly relevant evidence to lure the factfinder into
declaring guilt on a ground different from proof specific
to the offense charged. See generally 1 J. Weinstein, M.
Berger, & J. McLaughlin, Weinstein’s Evidence
¶403[03] (1996) (discussing the meaning of “unfair
prejudice” under Rule 403). The Committee Notes to
Rule 403 explain, “Unfair prejudice’ within its context
means an undue tendency to suggest decision on an
improper basis, commonly, though not necessarily, an
emotional one.” Advisory Committee’s Notes on Fed.
Rule Evid. 403, 28 U.S.C.App., p. 860. Id. This Court
goes further by stating, “Such improper grounds
certainly include the one that Old Chief points to here:
generalizing a defendant’s earlier bad act into bad
character and taking that as raising the odds that he
did the later bad act now charged (or, worse, as calling
for preventive conviction even if he should happen to be
innocent momentarily). As then-Judge Breyer put it,
“Although ... ‘propensity evidence’ is relevant, the risk
that a jury will convict for crimes other than those
charged—or that, uncertain of guilt, it will convict

19
anyway because a bad person deserves punishment—
creates a prejudicial effect that outweighs ordinary
relevance.” United States v. Moccia, 681 F.2d 61, 63
(1st Cir. 1982). Id.
The Court in Old Chief goes further by warning that
certain evidence can lead a jury into bad character
reasoning. Old Chief v. United States, 519 U.S. 172,
173 (1997), “In dealing with the specific problem raised
by § 922(g)(1) and its prior-conviction element, there
can be no question that evidence of the name or nature
of the prior offense generally carries a risk of unfair
prejudice whenever the official record would be
arresting enough to lure a juror into a sequence of bad
character reasoning. Id.
The evidence admitted in Hill violates Huddleston
in two ways (1) the probation status is not relevant and
(2) admittance of Mr. Hill’s probation status is unfairly
prejudicial. When assessing the relevancy of this
matter one must assess the reasonableness of the
officer’s actions at the time of the shooting. In
determining objective reasonableness under
circumstances for purposes of excessive force and
arrest claims, “under the circumstances” refers only to
circumstances known and information available to
officer at time of action; when jury measures objective
reasonableness of officer’s action, it must stand in his
shoes and judge reasonableness of actions based upon
information possessed and judgment officer exercised
in responding to that situation. U.S. Const. amend. IV.
Sherrod v. Berry, 856 F.2d 802 (7th Cir. 1988)
The fact that Mr. Hill was on probation had no
relevancy to the material issues of the case. Mr. Hill’s

20
probation status had no probative value as to why he
closed the door at the time of the officer’s arrival. It
also is not relevant to whether Mr. Hill was holding the
gun at the time of the incident. It is important to note,
the officers had no knowledge of Mr. Hill’s probation
status upon their arrival at his home. The officers were
not informed of Mr. Hill’s probationary status until
days after the shooting. As such, it was unfairly
prejudicial to introduce Mr. Hill’s probationary status
to the jury because the officers were not privy to that
information at the time of the fatal shooting.
The analysis of Knight through Kerr v. Miami Dade
County also fails. In it, the witness testimony was a
major issue. There were conflicting statements as to
whether the car in question was fleeing the scene
before or after the shooting. Thus, the admittance of
the defendant’s probationary status was used to
provide motive or clarity to the reason for fleeing.
Additionally, there was a question of a witness
changing her story at trial and thus her prior grand
theft was material, relevant and necessary. In the
instant matter, the probationary status does not shed
light on any issue in question. Mr. Hill’s probationary
status did not add knowledge about the ability of time
and space to provide a particular result. Specifically, he
was committing no crime and was being investigated
for no crime. Probation did not speak to his ability to
place the gun in his pocket during the incident in
question. It was, to the contrary, brought in to explain
part of some paradox of motive and thus created a
domino effect of allowing in irrelevant and/or
prejudicial evidence of moral turpitude or conduct to

21
label him as less than noble citizen, even though he
may not have even been on probation at the time.
III.

The Eleventh Circuit’s Standard of Review
Was Legally Appropriate.

The Eleventh Circuit applied the appropriate
standard of review and appropriate application of the
harmless error rule. The court in Pratt identifies when
an error is harmful. Pratt v. State, 1 So. 3d 1169 (Fla.
4th DCA 2009). Erroneous admission of collateral
crimes evidence is presumptively harmful; the error
may be found harmless only if it can be said beyond a
reasonable doubt that the verdict could not have been
affected by the error. Id.
Defense counsel did not have to “portray” Mr. Hill
as a bad man because introducing evidence of probation
status allowed the jury to infer he was a bad man. The
Eleventh Circuit relied on United States v. Avarello,
592 F.2d 1339, 1346 (5th Cir. 1979)(holding, in the
context of criminal prosecution, that “the danger
inherent in evidence of prior convictions is that juries
may convict a defendant because he is a ‘bad man’
rather than because evidence of the crime of which he
is charged has proved him guilty”). Because of this
danger, such evidence is inherently prejudicial. United
States v. Beechum, 582 F.2d 898, 910 (5th Cir. 1978)
(noting the “inherent prejudice” of evidence of prior
criminal convictions)
The Hill case is also similar to Chapman v.
California. Chapman v. California, 386 U.S. 18 (1967)
Chapman held:

22
Comment on failure of defendants to testify was
not harmless error where state prosecutor’s
argument and trial judge’s instruction to jury
continuously and repeatedly impressed jury that
from refusal of defendants to testify, to all
intents and purposes, the inferences from facts
in evidence had to be drawn in state’s favor, and
where state failed to demonstrate beyond
reasonable doubt that such comments and
instructions did not contribute to defendants’
convictions. Id.
In the instant matter, the probationary status of
Mr. Hill was introduced over stringent objection. This
goes beyond harmless error because the Petitioners’
gave the jury the impression that Mr. Hill violated his
probation in two ways by being intoxicated and
possessing a gun. Admitting these facts into the record
essentially portrays Mr. Hill as a “bad man”. This
coupled with the officers’ testimony that Mr. Hill was
holding a gun resulted in inferences that were in the
defendants’ favor contributing to the verdict of $4.
Therefore, the admittance of Mr. Hill’s probationary
status was not harmless error and the Eleventh Circuit
fairly and accurately analyzed these issues.
CONCLUSION
During oral argument, Judges Martin, Lagoa and
Grant focused in on two issues: probation and
Petitioners’ conceded complete failure under Rule 26 to
disclose possession of the alleged firearm until right
before trial. Because the probation introduction was
reversable error, the court reversed and remanded
without needing to reach a conclusion on the Rule 26

23
violation. Yet, Petitioners seek to address only
probation and reinstate the verdict, which would
completely erase the trial court and Petitioners’ other
errors.
At oral argument, Judge Britt C. Grant’s first words
recognized, “the problem is we are looking after a jury
verdict. The jurors heard all of this evidence… and
made the conclusion based on all of that evidence that
he did, it appears, have the gun in his hand.” Thus, she
recognized the very concern expressed by Petitioners.
She also then asked why introduction of probation
wasn’t harmless error. We cited in briefs and at oral
argument why Graham v. Conner, 490 U.S. 386 (1989),
Sherrod v. Berry, 856 F.2d 802 (7th Cir. 1988),
Escabido v. Martin, 728 F.3d 388 (7th Cir. 2012) all
stand together to and are distinguished from Knight
through Kurr v. Miami-Dade County, 856 F.3d 795
(11th Cir. 2017). They all stand consistent with the
ruling here. As the opinion expresses, the Eleventh
Circuit Court was unanimously convinced that the
evidence was, indeed, harmful and not harmless.
Federal Rule of Evidence 404(b) provides that
evidence of “other crimes, wrongs, or acts” is not
admissible to prove a person’s character, but may be
admissible for other purposes, such as proof of
knowledge. As noted by the Eleventh Circuit, “Rule
404(b)(2) provides that such evidence “may be
admissible for another purpose, such as proving
motive, opportunity, intent, preparation, plan,
knowledge, identity, absence of mistake, or lack of
accident.” And further, “Evidence that is admissible
under Rule 404(b)(2) must still “possess probative

24
value that is not substantially outweighed by its undue
prejudice and must meet the other requirements of
[R]ule 403.” Judges Martin, Lagoa and Grant
unanimously held, “Evidence of Mr. Hill’s probationary
status was not relevant to any issue other than Hill’s
character. It therefore had no permissible probative
value.”
The Eleventh Circuit added, “(T)here are
circumstances in which criminal history evidence not
known to law enforcement officers at the time force was
used may still be admissible under Rule 404(b) to lend
support to the officers’ factual claims. For example, in
Knight ex rel. Kerr v. Miami-Dade County, 856 F.3d
795 (11th Cir. 2017), this Court affirmed the admission
of evidence that three victims of a police shooting were
on probation at the time of the shooting.” The court
reviewed Knight, its own case and held, “No such
circumstances were present here. Unlike in Knight,
there was no material fact in dispute that Mr. Hill’s
probationary status helped resolve.”
Petitioners seek a departure from the Rule and case
precedent, exclusively in civil rights cases, in order to
introduce evidence of probation unknown and
irrelevant to a police shooting merely because it “may
explain” the shooting victim’s response to law
enforcement. Petitioners cite no precedent while asking
the Supreme Court to essentially create new law. This
request should be denied.
Petitioners next ask, did the Eleventh Circuit make
“themselves impregnable citadels of technicality” in the
underlying case? Petitioners apparently seek to invoke
words from Kotteakos v. United States, 328 U.S. 750,

25
758 (1946), which is sometimes invoked to accuse
appellate courts of overstepping, which, in this case, is
precisely what the unanimous court said the district
court did at the trial level. However, the Eleventh
Circuit engaged in a reasoned analysis, concluding,
“The District Court abused its discretion in admitting
evidence of Mr. Hill’s probationary status at trial, and
this error resulted in prejudice to Ms. Bryant’s case
against Deputy Newman and Sheriff Mascara. Because
this error independently warrants reversal, we need
not reach Ms. Bryant’s other arguments.”
During oral argument, Judge Martin called the
introduction of probation as the, “worst of all possible
worlds because the jury didn’t know the nature of
probation” and speculated the jury could concern itself
with whether, “maybe Hill had done something
horrible.. or violent.” Judge Britt C. Grant asked if
there were any other reasons which would have made
probation relevant. They studied these very issues.
They also declined to hear this case en banc. This
Petition seems to just present a poor vehicle to try and
restore an unjust verdict based on only one of the
reasons it was unjust.
The decision of the Eleventh Circuit Court of Appeal
is due to be affirmed and this Petition due to be denied.

26
Respectfully
November, 2020

submitted

JOHN M. PHILLIPS
Counsel of Record
PHILLIPS & HUNT
212 North Laura Street
Jacksonville, FL 32201
(904) 444-4444
(904) 508-0683 (facsimile)
jmp@floridajustice.com
Counsel for Respondent

this

16th

day

of

